HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross and Blue Shield of Mississippi, (A-07-97-01211)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross
and Blue Shield of Mississippi," (A-07-97-01211)
September 8, 1997
Complete Text of Report is available in PDF format
(1.13 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs Claimed
for Medicare Reimbursement by Blue Cross and Blue Shield of Mississippi for
Fiscal Years 1988 through 1996. We determined that Blue Cross and Blue shield
of Mississippi (Mississippi) claimed pension costs that are unallowable for
medicare reimbursement. During this period, the allowable Medicare pension costs
were $1,642,204. However, Missouri claimed pension costs of $1,776,516 for Medicare
reimbursement. As a result, Missouri claimed $134,312 in pension costs that
are not allowable. The over claim occurred primarily because Mississippi did
not base their claim on separately computed Cost Accounting Standards pension
costs for the Medicare segment. We recommended Mississippi revise its Final
Administrative Cost Proposals to eliminate the unallowable pension cost.